No. 21IN THE

Supreme Court of the United States
NC FINANCIAL SOLUTIONS OF UTAH, LLC,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA EX REL.
MARK R. HERRING, ATTORNEY GENERAL,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VIRGINIA

PETITION FOR A WRIT OF CERTIORARI

CHARLES K. SEYFARTH
ELIZABETH TURNER
O’HAGAN MEYER
411 East Franklin
Street, Suite 500
Richmond, VA 23219
(804) 403-7137

SETH P. WAXMAN
Counsel of Record
DANIEL S. VOLCHOK
DAVID M. LEHN
AMY LISHINSKI
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave, N.W.
Washington, D.C. 20006
(202) 663-6000
seth.waxman@wilmerhale.com

QUESTION PRESENTED
Virginia’s attorney general brought this case
against petitioner under state law, seeking individualized relief on behalf of people who borrowed money from
petitioner pursuant to a loan agreement. That agreement contains a provision requiring individual arbitration of any claim “arising from or relating directly or indirectly to this Agreement,” including “claims asserted
on [the borrower’s] behalf by another person.” Although
the attorney general’s claims for individualized relief
would indisputably be covered by the agreement to arbitrate if asserted by the borrowers themselves, the Virginia Supreme Court held that the attorney general
could assert those claims on the borrowers’ behalf in litigation because he was not a signatory to, and therefore
not bound by, the arbitration agreement. The question
presented is:
Whether a state attorney general who is not a signatory to an arbitration agreement may bring claims that
are covered by the agreement and seek individualized
relief on those claims on behalf of persons who are signatories to the agreement and thus would be required to
arbitrate if they brought those claims themselves.

(i)

CORPORATE DISCLOSURE STATEMENT
NC Financial Solutions of Utah, LLC, is an indirect
wholly owned subsidiary of Enova International, Inc., a
publicly traded company.

(ii)

TABLE OF CONTENTS
Page
QUESTION PRESENTED ............................................... i
CORPORATE DISCLOSURE STATEMENT ............. ii
TABLE OF AUTHORITIES ........................................... v
INTRODUCTION .............................................................. 1
OPINIONS BELOW .......................................................... 5
JURISDICTION ................................................................. 5
STATUTORY PROVISION INVOLVED ..................... 6
STATEMENT ..................................................................... 7
A. Statutory Framework .......................................... 7
B. Factual And Procedural History ........................ 9
REASONS FOR GRANTING THE PETITION .......... 13
I.

THE DECISION BELOW IS WRONG ............................ 13
A. Traditional State-Law Contract Principles Bar Third Parties—Including Attorneys General—From Suing For Individualized Relief For People Who
Could Seek That Relief For Themselves
Only In Individual Arbitration ......................... 13
B. Waffle House Does Not Support The
Decision Below .................................................... 18

II. THE DECISION BELOW DEEPENS DIVISION
AMONG LOWER COURTS ............................................ 21
A. Two Federal Circuits Have Held That
Non-Signatory Attorneys General Are
Bound By Arbitration Agreements
When Suing On Behalf Of A Signatory ........... 21
(iii)

iv
TABLE OF CONTENTS—Continued
Page
B. State Appellate Courts Have Taken A
Different Approach ............................................. 23
III. THE QUESTION PRESENTED IS IMPORTANT
AND RECURRING ........................................................ 25
CONCLUSION ................................................................. 28
APPENDIX A: Opinion of the Supreme Court
of Virginia, dated February 25, 2021 ....................... 1a
APPENDIX B: Opinion Letter of the Nineteenth Judicial Circuit of Virginia, dated
May 1, 2019 ................................................................ 13a
APPENDIX C: Arbitration Provision (excerpts) ........ 23a

v
TABLE OF AUTHORITIES
CASES
Page(s)
14 Penn Plaza LLC v. Pyett, 556 U.S. 247
(2009) ....................................................................... 17
Allied-Bruce Terminix Companies v.
Dobson, 513 U.S. 265 (1995) ................................. 17
Arthur Andersen LLP v. Carlisle, 556 U.S.
624 (2009) ...................................................3, 8, 12-14
AT&T Mobility LLC v. Concepcion, 563 U.S.
333 (2011) ..................................... 2, 4, 6-8, 16-17, 27
Buckeye Check Cashing, Inc. v. Cardegna,
546 U.S. 440 (2006)................................................... 7
California v. IntelliGender, LLC, 771 F.3d
1169 (9th Cir. 2014) ................................................ 16
Circuit City Stores, Inc. v. Adams, 532 U.S.
105 (2001) ................................................................ 17
Comer v. Micor, Inc., 436 F.3d 1098 (9th Cir.
2006)......................................................................... 14
Cox Broadcasting Corporation v. Cohn,
420 U.S. 469 (1975)................................................... 5
Dean Witter Reynolds Inc. v. Byrd, 470 U.S.
213 (1985) ............................................................ 1, 28
EEOC v. Waffle House, Inc., 534 U.S. 279
(2002) ..................................................3, 11, 14, 19-20
Epic Systems Corporation v. Lewis, 138 S.
Ct. 1612 (2018) ...............................................8, 17-18
Garrett v. Circuit City Stores, Inc., 449 F.3d
672 (5th Cir. 2006) .................................................. 23

vi
TABLE OF AUTHORITIES—Continued
Page(s)
GE Energy Power Conversion France SAS,
Corporation v. Outokumpu Stainless
USA, LLC, 140 S. Ct. 1637 (2020) ............3, 7-8, 14
Gilmer
v.
Interstate/Johnson
Lane
Corporation, 500 U.S. 20 (1991)............................. 1
Jones v. Nelson County, 120 S.E. 140 (Va.
1923)................................................................... 13, 15
Joule, Inc. v. Simmons, 944 N.E.2d 143
(Mass. 2011) ............................................................ 24
Kindred
Nursing
Centers
Limited
Partnership v. Clark, 137 S. Ct. 1421
(2017) ............................................................... 2, 8, 16
Lamps Plus, Inc. v. Varela, 139 S. Ct. 1407
(2019) ............................................................... 2, 8, 16
Marmet Health Care Center, Inc. v. Brown,
565 U.S. 530 (2012)................................................... 8
Mitsubishi Motors Corporation v. Soler
Chrysler-Plymouth, Inc., 473 U.S. 614
(1985) ..................................................................17-18
Nitro-Lift Technologies, LLC v. Howard,
568 U.S. 17 (2012)............................................... 2, 25
Olde Discount Corporation v. Tupman,
1 F.3d 202 (3d Cir. 1993) ..................................22-23
People ex rel. Cuomo v. Coventry First LLC,
915 N.E.2d 616 (N.Y. 2009) .............................23-24
Preston v. Ferrer, 552 U.S. 346 (2008) ......................... 8

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Scherk v. Alberto-Culver Company, 417 U.S.
506 (1974) .................................................................. 1
Southland Corporation v. Keating, 465 U.S.
1 (1984) ...................................................................5-6
State ex rel. Hatch v. Cross Country Bank,
Inc., 703 N.W.2d 562 (Minn. Ct. App.
2005)....................................................................24-25
Stolt-Nielsen
S.A.
v.
AnimalFeeds
International Corporation, 559 U.S. 662
(2010) ................................................................. 17, 27
Thomson-CSF, S.A. v. American Arbitration
Ass’n, 64 F.3d 773 (2d Cir. 1995) ......................... 14
United States v. Bankers Insurance
Company, 245 F.3d 315 (4th Cir 2001) ..........21-22
Volt Information Sciences, Inc. v. Board of
Trustees of Leland Stanford Junior
University, 489 U.S. 468 (1989) ......................3, 6-7
STATUTORY PROVISIONS
9 U.S.C. §2 ....................................................................6-7
28 U.S.C. §1257 ............................................................... 5
Va. Code §59.1-203........................................................ 20
LEGISLATIVE MATERIALS
H.R. No. 68-96 (1924) ................................................... 17
H.R. Rep. No. 97-542 (1982) ........................................ 17
S. Rep. No. 68-536 (1924) ............................................. 17

viii
TABLE OF AUTHORITIES—Continued
Page(s)
OTHER AUTHORITIES
Dishman,
Elysa
M.,
Enforcement
Piggybacking and Multistate Actions,
2019 B.Y.U. L. Rev. 421 (2019) ...................... 20, 26
Gifford, Donald G., Impersonating the
Legislature: State Attorneys General and
Parens Patriae Product Litigation, 49
B.C. L. Rev. 913 (2008) ......................................... 26
Gilles, Myriam & Gary Friedman, After
Class: Aggregate Litigation in the Wake
of AT&T Mobility v. Concepcion,
79 U. Chi. L. Rev. 623 (2012)................................ 27
Lemann, Alexander, Note, Sheep in Wolves’
Clothing: Removing Parens Patriae
Suits Under the Class Action Fairness
Act, 111 Colum. L. Rev. 121 (2011) ..................... 27
Lemos, Margaret H., Aggregate Litigation
Goes Public: Representative Suits by
State Attorneys General, 126 Harv. L.
Rev. 486 (2012) ....................................................... 26
Ratliff, Jack, Parens Patriae: An Overview,
74 Tul. L. Rev. 1847 (2000) ................................... 27

IN THE

Supreme Court of the United States
No. 21NC FINANCIAL SOLUTIONS OF UTAH, LLC,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA EX REL.
MARK R. HERRING, ATTORNEY GENERAL,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF VIRGINIA

PETITION FOR A WRIT OF CERTIORARI
NC Financial Solutions of Utah, LLC (NCFS) respectfully petitions for a writ of certiorari to review the
decision of the Supreme Court of Virginia in this case.
INTRODUCTION
For decades, this Court has repeatedly explained
that Congress enacted the Federal Arbitration Act, or
FAA, “to reverse … longstanding judicial hostility to arbitration agreements …, and to place arbitration agreements upon the same footing as other contracts.” Gilmer
v. Interstate/Johnson Lane Corporation, 500 U.S. 20, 24
(1991) (citing Dean Witter Reynolds Inc. v. Byrd, 470
U.S. 213, 219-220 & n.6 (1985), and Scherk v. AlbertoCulver Company, 417 U.S. 506, 510 n.4 (1974)). Judicial

2
hostility to arbitration agreements, however, has persisted, requiring the Court time and again to grant review and reverse lower-court decisions that employed “a
great variety of devices and formulas” in order to avoid
honoring Congress’s mandates in the FAA. AT&T Mobility LLC v. Concepcion, 563 U.S. 333, 342 (2011) (quotation marks omitted); see also, e.g., Lamps Plus, Inc. v.
Varela, 139 S. Ct. 1407, 1419 (2019); Kindred Nursing
Centers Limited Partnership v. Clark, 137 S. Ct. 1421,
1426 (2017); Nitro-Lift Technologies, LLC v. Howard,
568 U.S. 17, 22 (2012) (per curiam). The Court’s intervention is again needed, as the Virginia Supreme Court’s
decision in this case—a decision that deepens a division
of authority among lower state and federal courts—impermissibly disfavors arbitration agreements and has
far-reaching deleterious implications.
NCFS makes small loans to individuals over the Internet. Like many other businesses, NCFS includes a
broad arbitration provision in its loan agreement, a provision that requires borrowers to pursue claims arising
from or relating to the agreement through individual arbitration. Virginia’s attorney general brought this action against NCFS in 2018, alleging that NCFS’s lending
practices violated Virginia law. Among other relief, the
attorney general asked the court to award restitution to
individual NCFS borrowers. NCFS asserted that the
FAA barred the attorney general from circumventing
those arbitration provisions by suing as a proxy for
NCFS borrowers, i.e., by advancing damages claims that
in every meaningful sense belong to the borrowers and
seeking on borrowers’ behalf individualized relief that
they had agreed to pursue in individual arbitration. The
Virginia Supreme Court rejected NCFS’s argument,
holding that the attorney general could not be bound by

3
the arbitration provision because he was not a signatory
to the loan agreement.
That ruling, in addition to departing from decisions
of two federal circuits, cannot be reconciled with the
FAA itself or with this Court’s precedent interpreting
that statute. The FAA commands that arbitration
agreements be treated like other contracts. See, e.g.,
Volt Information Sciences, Inc. v. Board of Trustees of
Leland Stanford Junior University, 489 U.S. 468, 474
(1989). And this Court has explained—including in the
arbitration context—there are circumstances in which a
non-signatory to a contract can be bound by it. See GE
Energy Power Conversion France SAS, Corporation v.
Outokumpu Stainless USA, LLC, 140 S. Ct. 1637, 16431644 (2020) (citing Arthur Andersen LLP v. Carlisle,
556 U.S. 624, 631 (2009)). One such circumstance is
where a party seeks restitution in court for individuals
who could not seek it in court for themselves because of
an arbitration provision. The Virginia Supreme Court’s
contrary conclusion improperly nullified the arbitration
provision to which NCFS and its borrowers agreed, allowing that provision to be circumvented simply by having the attorney general attach his name to what are in
every meaningful sense the borrowers’ claims.
The court justified its ruling by citing EEOC v. Waffle House, Inc., 534 U.S. 279 (2002), which held that the
FAA did not preclude the EEOC from pursuing federal
claims under the Americans with Disabilities Act (ADA)
on behalf of employees who had signed agreements with
their employers to arbitrate such claims. But contrary
to the Virginia Supreme Court’s suggestion, Waffle
House did not broadly exempt public officials from the
FAA and traditional contract principles when they sue
for the benefit of a signatory to an arbitration agreement. In any event, Waffle House involved the interplay

4
of two federal statutes rather than (as here) the interplay of state and federal law. And this Court’s reconciliation of the two statutes at issue in Waffle House flowed
from features of the ADA (and the EEOC) that are not
present here. Waffle House thus does not support the
decision below.
Review of the Virginia Supreme Court’s decision is
warranted not only because of the conflict it deepens
among lower courts over the question presented, but
also because of its far-reaching implications. In recent
years, state attorneys general have become increasingly
aggressive in bringing lawsuits against businesses, often
on behalf of thousands of state residents. Because of this
aggregation of claims, such lawsuits resemble class actions—and hence lawsuits like this one raise the possibility of attorneys general obtaining what this Court has
called “‘in terrorem’ settlements,” unrelated to a claim’s
merit, Concepcion, 563 U.S. at 350. This Court’s precedent makes clear that businesses and others can reduce
the risk of being subjected to such coercion by agreeing
in advance to arbitrate disputes individually. That is
what NCFS attempted to do here. Yet the decision below leaves NCFS defending itself against what is in effect a class action: an aggregation of claims belonging to
borrowers who agreed to arbitrate individually yet pursued collectively in court by the attorney general. Attorneys general should not be able to circumvent valid
arbitration agreements (or the FAA’s command that
they be rigorously enforced) and coerce potentially large
settlements of questionable claims in this way, i.e., by
seeking individualized relief in court on behalf of borrowers when the borrowers agreed that such relief could
be sought only via individual arbitration.

5
OPINIONS BELOW
The opinion of the Supreme Court of Virginia (App.
1a-12a) is published at 854 S.E.2d 642. The opinion of the
Circuit Court for Fairfax County, Virginia (App. 13a21a) is reported at 102 Va. Cir. 114.
JURISDICTION
The Virginia Supreme Court issued its decision on
February 25, 2021. This Court has jurisdiction under 28
U.S.C. §1257(a), which authorizes review of “[f]inal judgments or decrees rendered by the highest court of a
State.”
The Virginia Supreme Court’s decision is final under
§1257 even though there will be further proceedings in
the state courts. In Cox Broadcasting Corporation v.
Cohn, 420 U.S. 469 (1975), this Court held that review
under §1257 is available despite the fact that there will
be further state-court proceedings if (as relevant here):
•

“the federal issue has been finally decided in the
state courts” and the party seeking review “might
prevail on the merits on nonfederal grounds, thus
rendering unnecessary review of the federal issue
by this Court”;

•

“reversal of the state court on the federal issue
would be preclusive of any further litigation on the
relevant cause of action”; and

•

“a refusal immediately to review the state-court decision might seriously erode federal policy.”

Id. at 482-483. This Court has repeatedly held these requirements to be met where a state high court refuses to
enforce an arbitration agreement and the petitioner contends that the state court’s decision violated the FAA.
See Southland Corporation v. Keating, 465 U.S. 1, 6-8

6
(1984); Volt, 489 U.S. at 473 & n.4. The same conclusion
is warranted here.
First, the Virginia Supreme Court’s ruling—that
the arbitration agreement between NCFS and its borrowers does not preclude the attorney general from
seeking individualized damages in court on behalf of
those borrowers, App. 5a-9a—is the state courts’ final
word on that question. And “[w]ithout immediate review of the [Virginia Supreme Court’s] holding by this
Court there may be no opportunity to pass on the federal
issue,” because NCFS might prevail in subsequent proceedings on state-law grounds. Southland, 465 U.S. at
6.
Second, reversal of the decision below on the question presented will preclude further litigation on the attorney general’s claims for individualized relief; any such
claims would instead be subject to individual arbitration.
See Southland, 465 U.S. at 7.
Third, a failure to review the decision below would
seriously erode the “liberal federal policy favoring arbitration,” Concepcion, 563 U.S. at 339, because the decision’s effect is “to nullify a valid contract made by private parties under which they agreed to submit all contract disputes to final, binding arbitration,” Southland,
465 U.S. at 7. And postponing review until after the
state courts’ final resolution of the case would “lead to
prolonged litigation, one of the very risks the parties, by
contracting for arbitration, sought to eliminate,” and
thus “would defeat the core purpose of a contract to arbitrate.” Id. at 7-8.
STATUTORY PROVISION INVOLVED
Section 2 of the FAA provides in relevant part that:

7
A written provision in any … contract evidencing a transaction involving commerce to settle
by arbitration a controversy thereafter arising
out of such contract or transaction, or the refusal
to perform the whole or any part thereof, or an
agreement in writing to submit to arbitration an
existing controversy arising out of such a contract, transaction, or refusal, shall be valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation of any contract.
9 U.S.C. §2.
STATEMENT
A. Statutory Framework
The FAA—which, as noted, was enacted “in response to widespread judicial hostility to arbitration
agreements”—“reflect[s] both a liberal federal policy favoring arbitration and the fundamental principle that arbitration is a matter of contract.” Concepcion, 563 U.S.
at 339 (quotation marks and citation omitted). To implement these principles, section 2 of the act states that a
“written provision in … a contract … to settle by arbitration a controversy thereafter arising out of such contract … shall be valid, irrevocable, and enforceable, save
upon such grounds as exist at law or in equity for the
revocation of any contract.” 9 U.S.C. §2. In other words,
“courts must place arbitration agreements on an equal
footing with other contracts.” Concepcion, 563 U.S. at
339 (citing Volt, 489 U.S. at 478, and Buckeye Check
Cashing, Inc. v. Cardegna, 546 U.S. 440, 443 (2006)).
That equality extends to “principles of state contract law
regarding the scope of agreements (including the question of who is bound by them).” GE Energy, 140 S. Ct.

8
at 1643. Hence, the “traditional principles of state law
[that] allow a contract to be enforced by or against nonparties to the contract” apply equally in the arbitration
context, Arthur Andersen, 556 U.S. at 631 (quotation
marks omitted); see also GE Energy, 140 S. Ct. at 1643
(citing Arthur Andersen).
Under the FAA, moreover, “state law is preempted
to the extent it stands as an obstacle to the accomplishment and execution of the full purposes and objectives of
the FAA.” Lamps Plus, 139 S. Ct. at 1415 (quotation
marks omitted); see also, e.g., Kindred Nursing, 137
S. Ct. at 1426; Epic Systems Corporation v. Lewis, 138
S. Ct. 1612, 1622 (2018). For example, in AT&T Mobility
LLC v. Concepcion, the Court held that the FAA
preempted a state-court rule conditioning enforcement
of arbitration provisions on whether they allowed class
arbitration. 563 U.S. at 336, 352. Even though the rule
was purportedly grounded in the generally applicable
“unconscionability doctrine and [the state’s] policy
against exculpation,” the rule was preempted because
the state “applied [those principles] in a fashion that disfavors arbitration.” Id. at 341, 344. Similarly, in Marmet
Health Care Center, Inc. v. Brown, 565 U.S. 530 (2012)
(per curiam), the Court held that the FAA preempted a
state-court rule deeming a certain category of arbitration clauses void “as a matter of public policy,” id. at 532533; see also, e.g., Kindred Nursing, 137 S. Ct. at 14261427; Preston v. Ferrer, 552 U.S. 346, 356-359 (2008).
Moreover, this Court has observed that it “must be alert
to new devices and formulas” adopted or employed by
states to undermine arbitration agreements. Epic Systems, 138 S. Ct. at 1623 (citing Concepcion, 563 U.S. at
342).

9
B. Factual And Procedural History
1. NCFS provides online lending services. App.
2a. Between 2012 and 2018, it lent money to more than
47,000 Virginians. Id. The loan terms are laid out in
written agreements between NCFS and its borrowers.
See Va. S. Ct. J.A. 16-40.
These loan agreements each include a “broad arbitration provision[].” App. 2a n.1. Under that provision
(which is reproduced in full at pages 23a-29a of the appendix), “all claims ‘arising from or relating directly or
indirectly’ to the loan agreements were subject to arbitration, including any claims ‘based upon a violation of
any state … statute or regulation’ and any claims ‘asserted on [the borrower’s] behalf by another person.’”
App. 2a-3a n.1. (quoting App. 24a). “The loan agreements also stated that the arbitration provisions were
‘governed by the [FAA].’” App. 3a n.1 (alteration in
original) (quoting App. 28a).
To ensure understanding among the contracting
parties, the arbitration provision further stated that
borrowers “acknowledge[d] and agree[d]” that they
“waiv[ed] [their] right to have a court … resolve any dispute alleged against” NCFS. App. 24a-25a. The provision also required that any arbitration “be resolved …
only on an individual basis,” i.e., with no “class arbitration.” App. 25a (capitalization altered). The loan agreements recognized only one exception to mandatory arbitration, for disputes that could be brought in smallclaims court. See App. 28a. And even that exception was
only partial, because the arbitration provision specified
that any appeal from a judgment by such a court “shall
be resolved by binding arbitration.” Id.
The NCFS loan agreement gave each borrower 60
days to “opt out of th[e] Arbitration Provision.” App.

10
29a. Exercising that option, the agreement stated,
would not “affect” a borrower’s “other rights or responsibilities” thereunder. Id.
2. In 2018, Virginia’s attorney general brought this
action, nominally on behalf of the commonwealth, in
state court, alleging that certain terms of the loan agreements between NCFS and its borrowers violated the
Virginia Consumer Protection Act, or VCPA. App. 1a2a. The complaint requests injunctive relief, civil penalties, and awards of attorney’s fees, costs, and reasonable
expenses. App. 2a; see also Va. S. Ct. J.A. 13. Of particular relevance here, it also asks that damages be
awarded for individual borrowers—specifically, “‘all
sums necessary to restore to any consumers the money
or property which may have been acquired from them by
[NCFS] in connection with its [alleged] violations … of
the VCPA.’” App. 2a (quoting Va. S. Ct. J.A. 13).
Invoking the FAA, NCFS sought to enforce its arbitration agreement by moving to dismiss respondent’s
request for individualized damages or, alternatively, to
compel individual arbitration of such claims by the borrowers. App. 2a-3a; see also Va. S. Ct. J.A. 41-42. NCFS
argued that because it had agreed with each borrower to
arbitrate all claims relating to the borrower’s loan, including claims asserted on the borrower’s behalf, allowing the attorney general to sue for individualized damages—relief each borrower could seek only in individual
arbitration—would circumvent the arbitration provision
in violation of the FAA. App. 2a-3a; see also Va. S. Ct.
J.A. 41-42. NCFS did not contend that the attorney general’s requests for non-individualized remedies (including injunctive relief and civil penalties) were affected by
the arbitration agreement.

11
The trial court denied NCFS’s motion, concluding
that because “the Commonwealth was not a party to any
of the arbitration agreements made between individual
borrowers and [NCFS], … the Commonwealth is free to
pursue [its] claims through litigation.” App. 21a (citing
Waffle House).
3. NCFS appealed, again arguing that the attorney general’s claims for individualized damages contravene the FAA, see Va. S. Ct. J.A. 57, but the Virginia
Supreme Court affirmed.
Echoing the trial court, the state high court reasoned that because “the Commonwealth was not a party
to the loan agreements between NCFS[] and the Virginia consumers …, the Commonwealth is not bound by
the arbitration provisions contained in the loan agreements, and it could therefore pursue its claim for restitution in a judicial forum.” App. 5a.
Like the trial court, the Virginia Supreme Court relied heavily on this Court’s decision in Waffle House.
There, the Court held that “an agreement between an
employer and an employee to arbitrate employment-related disputes” did not “bar[] the Equal Employment
Opportunity Commission … from pursuing victim-specific judicial relief, such as backpay, reinstatement, and
damages, in an enforcement action” under the ADA. 534
U.S. at 282. Based on the EEOC’s role and authority
under that statute (including specific statutory authorization to pursue victim-specific relief), this Court determined that the agency was not bound by the arbitration
provision because the agency’s claim was not “merely
derivative” of the employee’s and because the EEOC did
“not stand in the employee’s shoes” or function as “a
proxy for the employee.” Id. at 297-298; see also id. at
285-288.

12
Here, the Virginia Supreme Court concluded that
“[u]nder Waffle House and general principles of contract
law, the Commonwealth is not bound by the arbitration
agreements at issue.” App. 9a. The court recognized
that this “Court has explained that traditional principles
of contract law [do] allow contracts to be enforced
against third parties in certain circumstances.” App. 7a8a n.4 (citing Arthur Andersen, 556 U.S. at 631). The
state court asserted in a footnote, however—without authority or analysis—that those “traditional principles of
contract law … do not apply in the present case.” App.
8a n.4. Moreover, the court stated, Waffle House held
that “the FAA does not address enforcement actions
that are brought by public agencies.” App. 8a. And the
court claimed—again without citing any supporting authority—that Waffle House was “based on the scope of
the FAA and the limitations of the underlying arbitration agreement rather than the specific provisions of the
ADA.” Id. The dispositive facts for the court, therefore,
were that “the Commonwealth was not a party to the
underlying arbitration agreements” and that (in the
court’s view) the attorney general’s request for restitution for individual borrowers “is similar to the ‘victimspecific’ relief pursued by the EEOC in Waffle House.”
App. 9a.

13
REASONS FOR GRANTING THE PETITION
I.

THE DECISION BELOW IS WRONG
A. Traditional State-Law Contract Principles Bar
Third Parties—Including Attorneys General—
From Suing For Individualized Relief For People Who Could Seek That Relief For Themselves Only In Individual Arbitration

The Virginia Supreme Court held here that because
the attorney general is not a party to an arbitration
agreement with NCFS, he is free to circumvent the arbitration agreements between NCFS and its borrowers
by suing in court as the borrowers’ proxy, seeking individualized relief for them even though they agreed to
seek it for themselves in individual arbitration. That
holding cannot be reconciled with the FAA or established principles of contract law.
1. As this Court has explained, “traditional principles of state law allow a contract to be enforced by or
against nonparties to the contract through” various doctrines, including “assumption, piercing the corporate
veil, alter ego, incorporation by reference, third-party
beneficiary theories, waiver and estoppel.” Arthur Andersen, 556 U.S. at 631 (quotation marks omitted). The
Virginia Supreme Court itself has long recognized this.
In one case, for example, the court held that a non-signatory to a contract was “bound” by it because he “simply
stepped into the shoes of the” signatory. Jones v. Nelson County, 120 S.E. 140, 140 (Va. 1923). And as noted,
it similarly recognized here that this “Court has explained that traditional principles of contract law allow
contracts to be enforced against third parties in certain
circumstances.” App. 7a n.4. Yet it brushed past those
principles, dismissing them with only the unexplained

14
and unsupported claim that they “do not apply in this
case.” App. 8a n.4.
That conclusory assertion disregards this Court’s
precedent—including precedent the decision below itself cited. Consistent with the FAA’s mandate that arbitration agreements be placed on an equal footing with
other contracts, see supra pp.7-8, this Court has made
clear that courts’ authority to bind non-signatories applies equally in the arbitration context. See Arthur Andersen, 556 U.S. at 631; GE Energy, 140 S. Ct. at 16431644. Indeed, “hundreds of years of common law” teach
that “contract and agency principles [may] bind nonsignatories to arbitration agreements.” Comer v. Micor,
Inc., 436 F.3d 1098, 1104 n.10 (9th Cir. 2006); accord, e.g.,
Thomson-CSF, S.A. v. American Arbitration Association, 64 F.3d 773, 776-777 (2d Cir. 1995) (“[N]onsignatories may be bound to the arbitration agreements of others” under “common law principles of contract and
agency law.”). Conversely, an arbitration agreement
does not bind a non-signatory who brings a claim that is
not “derivative” of a signatory’s claim, such that the nonsignatory does “not stand in the [signatory’s] shoes” or
is not “a proxy for the” signatory. Waffle House, 534
U.S. at 297-298.
Under this case law, the attorney general is bound
by the arbitration provision in the loan agreements to
the extent he seeks individualized damages for borrowers who have themselves agreed to the provision. (As
noted, NCFS has never argued that the attorney general’s claims for non-individualized relief—i.e., relief
available only to the attorney general—are subject to arbitration.) It is undisputed that the provision would require arbitration of the claims here for individualized relief if those same claims were brought by the borrowers
themselves. See supra p.9. Neither the borrowers nor

15
the attorney general should be permitted to circumvent
the borrowers’ arbitration agreements by having the attorney general simply attach his name to what are in
every meaningful sense the borrowers’ claims: Those
claims relate to the loan agreements between the borrowers and NCFS, and the attorney general seeks the
amount of loss that each individual borrower allegedly
suffered—money he asks the court to restore to each
borrower in exactly the amount that each allegedly lost.
See supra p.10. The attorney general is thus (as the Virginia Supreme Court said in a prior case) “simply
step[ping] into the shoes of” individual borrowers,
Jones, 120 S.E. at 140, serving as the borrowers’ proxy
by seeking to obtain damages for them relating to their
loan agreements. The attorney general cannot do so
without also taking on the obligations that those agreements impose on the borrowers, including the obligation
to arbitrate. Indeed, the attorney general rightly conceded below that he would be bound by an individual
borrower’s agreement to settle claims against NCFS.
See Respondent’s Va. S. Ct. Br. 34 n.12 (July 16, 2020).
That concession was well-founded, and the attorney general has never explained—nor did the court below—why
the FAA’s mandate that arbitration agreements be
treated the same as other contracts does not require that
he likewise be bound by the arbitration agreements entered into by those for whom he seeks damages.
To the extent that the attorney general’s (or the Virginia Supreme Court’s) explanation is that traditional
principles of contract law are categorically inapplicable
to a state attorney general, neither the attorney general
nor the court cited any authority supporting that proposition. (Waffle House, which the attorney general and
the court below relied on, does not constitute such authority, for reasons discussed in the next subsection.)

16
Contracts are regularly enforced by and against state attorneys general, as well as other public officials. See, e.g.,
California v. IntelliGender, LLC, 771 F.3d 1169, 11781182 (9th Cir. 2014). And even if there were a carve-out
from longstanding contract principles for state attorneys general when they sue on behalf of the public—and
again, no authority for such a carve-out has been cited
throughout this litigation—that carve-out certainly
would not extend to circumstances in which an attorney
general (as here) sues as a mere proxy for certain private
individuals.
2. As just explained, traditional contract principles
require that the attorney general adhere to the arbitration provision in borrowers’ loan agreements to the extent he attempts to litigate as their proxy by advancing
claims that relate to those agreements and seeking individualized relief on their behalf. By instead allowing the
attorney general to circumvent the arbitration provision, the decision below violates the FAA’s mandate that
arbitration agreements be placed “on an equal footing
with other contracts,” Concepcion, 563 U.S. at 339. The
decision, in other words, does “exactly what [the FAA]
bar[s]: adopt a legal rule hinging on the primary characteristic of an arbitration agreement—namely, a waiver
of the right to go to court.” Kindred Nursing, 137 S. Ct.
at 1427. Because it “disfavor[s]” arbitration clauses relative to other contracts in this way, id. at 1426, the rule
the Virginia Supreme Court adopted in this case (precisely the kind of “new” anti-arbitration rule that this
Court has said it must “be alert to,” see supra p.8) is
preempted by the FAA.
That preemption is confirmed by the fact that the
decision below will “‘stand[] as an obstacle to the accomplishment and execution of the full purposes and objectives’ of the FAA,” Lamps Plus, 139 S. Ct. at 1415

17
(quoting Concepcion, 563 U.S. at 352), namely, the “liberal federal policy favoring arbitration,” Concepcion,
563 U.S. at 339. Under the Virginia Supreme Court’s
ruling, businesses and others will be discouraged from
using arbitration agreements, because they will be unable to obtain the cost savings and other “real benefits”
that flow from arbitrating rather than litigating disputes
with their customers, employees, and others, Circuit
City Stores, Inc. v. Adams, 532 U.S. 105, 122 (2001); see
also Allied-Bruce Terminix Companies v. Dobson, 513
U.S. 265, 280 (1995); Stolt-Nielsen S.A. v. AnimalFeeds
International Corporation, 559 U.S. 662, 685 (2010); 14
Penn Plaza LLC v. Pyett, 556 U.S. 247, 257 (2009);
Mitsubishi Motors Corporation v. Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 628 (1985); H.R. Rep. No. 97-542,
at 13 (1982); H.R. No. 68-96, at 2 (1924); S. Rep. No. 68536, at 3 (1924). Those benefits will be unavailable even
when businesses and others have specifically agreed to
them. That is because under the decision below, individuals who wish to litigate a claim covered by an arbitration provision to which they agreed can turn to their
state attorney general (or anyone else authorized to sue
under state law) to bring their claim for them and recover the very damages they could recover for themselves only through arbitration. That outcome is impossible to reconcile with the FAA. As this Court has explained, that act proscribes conduct that targets “arbitration either by name or by more subtle methods, such
as by interfering with fundamental attributes of arbitration.” Epic Systems, 138 S. Ct. at 1622 (quotation marks
and alterations omitted); see also id. at 1623.

18
B. Waffle House Does Not Support The Decision
Below
As noted, the Virginia Supreme Court’s ruling—
that the attorney general can seek restitution in court
for borrowers who agreed in writing to seek such relief
only in arbitration—rested largely on this Court’s decision in Waffle House. In particular, the court below read
Waffle House to hold that the FAA does not require enforcement of arbitration agreements against non-signatory “public agencies” that would otherwise be bound
under traditional contract principles. App. 8a. The court
below also concluded that because the attorney general
“filed [his] complaint” assertedly “to enforce the VCPA
on behalf of the public,” the attorney general’s restitution request “is similar to the ‘victim-specific’ relief pursued by the EEOC in Waffle House” and therefore “[t]he
principles underlying the Waffle House decision apply
with equal weight in the present case.” App. 9a. None
of this reasoning withstands scrutiny.
The issue in Waffle House was whether a federal
statute—rather than, as here, a state-law rule—permitted the EEOC to assert claims in court seeking relief for
individuals who had signed arbitration agreements.
That difference is crucial because whereas the FAA
preempts any state law (common-law or otherwise) that
hinders the liberal federal policy favoring arbitration,
see supra pp.7-8, courts have a duty to “harmonize[]”
two federal statutes absent “a clearly expressed congressional intention” that “one displaces the other,”
Epic Systems, 138 S. Ct. at 1624 (quotation marks omitted); see also Mitsubishi, 473 U.S. at 628 (Congress, but
not states, can “preclude a waiver of judicial remedies”).
And the Waffle House Court’s conclusion that the
EEOC’s claims for individual relief did not have to be arbitrated rested not on any categorical exemption for

19
public officials—as the court below appeared to conclude—but on specific features of the EEOC’s powers
under the ADA that are absent here.
First, the EEOC has sole control over all claims of
employment discrimination. Under the ADA, Waffle
House explained, an individual employee cannot sue for
employment discrimination without first filing a
“charge” with the EEOC. 534 U.S. at 288, 296. And
when a charge is filed, the EEOC gains “exclusive jurisdiction over the claim” to “investigate,” try to “conciliate,” “evaluate the strength of the public interest at
stake,” and determine whether to “file[] suit on its own”
or issue a “right-to-sue letter” to the employee. Id. at
286, 288, 291. “If … the EEOC files suit,” moreover, the
ADA “unambiguously authorizes [the agency] to proceed in a judicial forum” and “the employee has no independent cause of action.” Id. at 291-292. In short, under
the ADA, the EEOC does “not stand in the employee’s
shoes” or function as “a proxy for the employee,” id. at
297-298; rather “the EEOC is in command of the process,” including having the ability to decide to sue on behalf of an individual employee or to permit the employee
to sue instead, id. at 291.
By contrast, no federal law places the attorney general in control of individuals’ claims. Nor, if it would matter, does the VCPA. That law has no administrative-exhaustion requirements, leaving individuals free to sue
for damages for any injury they allegedly incur from prohibited conduct, even if the attorney general also sues
for the same individualized relief. Unlike with the ADA,
therefore, the right to receive individualized relief in
court for a VCPA violation belongs to the individual—
and accordingly can be waived by the individual even
when the relief is sought by someone else. Moreover,
because the attorney general has no “exclusive

20
jurisdiction over [a borrower’s] claim,” he is “merely a
proxy for” borrowers, Waffle House, 534 U.S. at 288, i.e.,
his claim for individual relief is purely derivative of
theirs, and thus he must abide by their arbitration
agreements to the extent he pursues such relief on their
behalf.
Second, whereas Waffle House concluded that permitting the EEOC to sue despite an arbitration clause
would “have a negligible effect on the federal policy favoring arbitration,” 534 U.S. at 291 n.7, the same cannot
be said of actions by state attorneys general. Waffle
House anticipated such a negligible effect partly because
“some of the benefits of arbitration are already built into
the EEOC’s statutory duties,” id. at 290 n.7, including an
“independent statutory responsibility to investigate and
conciliate claims” before suing, id. at 288. The VCPA requires no such process, instead requiring only that the
attorney general provide “notice” in writing “before initiating any legal proceedings.” Va. Code §59.1-203(B).
The Waffle House Court also expected a negligible effect
on arbitration because the EEOC brings few cases and
almost always sues on behalf of a single employee rather
than a class of employees. See 534 U.S. at 290 n.7. State
attorneys general, in stark contrast, have become “national policymaker[s] and feared enforcer[s],” Dishman,
Enforcement Piggybacking and Multistate Actions,
2019 B.Y.U. L. Rev. 421, 447 (2019). Indeed, state attorneys general routinely file lawsuits under state consumer protection laws, often on behalf of large groups of
individuals. See infra pp.26-27.
These differences between this case and Waffle
House—none of which the Virginia Supreme Court
acknowledged, let alone addressed—leave no doubt that
Waffle House does not justify the state court’s decision
to depart from traditional contract principles by

21
allowing the attorney general to pursue individualized
relief in court for borrowers who would be required by
their arbitration agreements to seek such relief for
themselves only in arbitration.
II. THE DECISION BELOW DEEPENS DIVISION AMONG
LOWER COURTS
State high courts and federal courts of appeals have
divided on the question presented. In particular, two
federal circuits have held that non-signatory attorneys
general (or other government officials) must adhere to
an arbitration agreement when they sue for individualized relief on behalf of signatories to that agreement,
whereas state high courts (including here) have reached
the opposite conclusion. This established conflict, which
is unlikely to be resolved without this Court’s intervention, confirms the need for the Court’s review.
A. Two Federal Circuits Have Held That Non-Signatory Attorneys General Are Bound By Arbitration Agreements When Suing On Behalf Of
A Signatory
The Third and Fourth Circuits have held that public
officials who sue on behalf of a party to an arbitration
agreement are bound by that agreement.
In United States v. Bankers Insurance Company,
245 F.3d 315 (4th Cir. 2001), the attorney general of the
United States sued Bankers for damages under the
False Claims Act on behalf of the Federal Emergency
Management Agency, see id. at 317-318 & n.2. The
claims related to a contract between FEMA and Bankers that contained an arbitration clause. Id. at 318. The
Fourth Circuit held that the attorney general was bound
by that clause even though he “was not a party” to the

22
contract. Id. at 323. The court declined to make an exception to the traditional rule that “when a third party
sues on a contract, any arbitration provision contained
therein remains in force …, simply because the Attorney
General” had sued. Id. The court explained that “the
Attorney General’s rights and responsibilities under the
[contract] are derivative of [FEMA’s], and [therefore]
he possesses no right to ignore the arbitration agreement.” Id.
The Third Circuit reached a similar conclusion in
Olde Discount Corporation v. Tupman, 1 F.3d 202 (3d
Cir. 1993). There, state securities regulators initiated
administrative proceedings to rescind stock transactions
on behalf of investors who had agreed to arbitrate disputes with their broker-dealer. See id. at 203-205. Although the state officials’ claim “certainly would be subject to arbitration if pursued by the [investors] themselves,” the state “argue[d] that for preemption purposes [courts] must distinguish between the advancement of essentially identical claims on the basis of
whether their proponent is a state agency or a private
litigant.” Id. at 208-209 (op. of Greenberg, J.). The court
rejected that argument, holding that the state was
bound by the arbitration clause, though the panel members diverged slightly as to the reason. See id. at 204.
Judge Greenberg concluded that allowing “an agreement to arbitrate … [to] be abrogated by a state
agency’s pursuit of an administrative remedy that would
duplicate the remedy sought in an arbitration,” 1 F.3d at
207, would “create[] an obstacle to the accomplishment”
of the FAA’s purpose of “favoring” arbitration, id. at 209
(quotation marks omitted). He pointed to several circumstances supporting that conclusion, including “[t]he
very community of interest between the state” and the
individual investors; the fact that having to participate

23
in the administrative process would “deprive[ the broker-dealer] of its right to the presumed simplicity and
efficiency of the arbitral forum”; and the fact that the administrative proceeding and the arbitration (which the
investors could pursue concurrently) could reach “irreconcilable” results. Id. at 209-210. In his view, therefore,
the state’s attempt to proceed administratively would
“render [the] right to arbitration meaningless.” Id. at
209.
Judge Rosenn agreed that allowing the administrative proceeding “would interfere with the contractually
created arbitration agreement.” 1 F.3d at 215. And similar to Judge Greenberg, he regarded the administrative
proceeding as an “attempted … ‘end run’ around the
terms of the arbitration agreement.” Id. Judge
Rosenn’s disagreement with Judge Greenberg was only
that Judge Rosenn believed this conclusion followed
from contract law, without the need to consider preemption under the FAA. Id. at 216; see also Garrett v. Circuit City Stores, Inc., 449 F.3d 672, 680-681 (5th Cir.
2006).
B. State Appellate Courts Have Taken A Different Approach
In contrast to the Third and Fourth Circuit decisions
just discussed, the highest courts of New York and Massachusetts, as well as the Minnesota Court of Appeals,
have issued rulings aligned with the Virginia Supreme
Court’s decision in this case.
In People ex rel. Cuomo v. Coventry First LLC, 915
N.E.2d 616 (N.Y. 2009), New York’s attorney general
sued a buyer of life insurance policies seeking rescission
and restitution “on behalf of the [policy] owners … who
have been damaged by the [buyer’s alleged] schemes,”

24
id. at 618 (quotation marks omitted). Invoking the arbitration agreements between itself and the policy owners, the buyer moved to compel arbitration of “all claims
for victim-specific relief,” arguing that “the Attorney
General, by suing on behalf of policy sellers …, ha[d] become the agent or alter ego of the … sellers.” Id. at 618619 (quotation marks omitted). On appeal, the New
York Court of Appeals held that this argument “fail[ed]
in light of” Waffle House. Id. at 619. The court reasoned
that the attorney general’s “statutory authority to serve
the public interest by seeking both injunctive and victim-specific relief[ was] comparable to that of the EEOC
in the federal arena.” Id. Thus, the court concluded,
“[l]ike the EEOC, the Attorney General should not be
limited, in his duty to protect the public interest, by an
arbitration agreement he did not join.” Id.
The Massachusetts Supreme Judicial Court reached
a similar conclusion in Joule, Inc. v. Simmons, 944
N.E.2d 143 (Mass. 2011). There, an individual filed a
complaint with a state agency alleging employment discretion. Id. at 145. Under state law, the agency had the
authority to “conduct its own, independent proceeding
based on [the] complaint.” Id.; see also id. at 148. The
employer moved in state court to compel arbitration under the terms of the employment contract. Id. at 145.
Citing Waffle House, the court held that, because the
state agency was “not a party to the employment agreement at issue here,” it “cannot be bound by the agreement’s arbitration provision.” Id. at 149; see also id. at
150.
And in State ex rel. Hatch v. Cross Country Bank,
Inc., 703 N.W.2d 562 (Minn. Ct. App. 2005), the Minnesota attorney general sued a bank over its practices for
collecting credit card debt, seeking restitution for all injured persons, see id. at 566. Because the bank’s

25
cardholders had agreed to arbitrate disputes involving
their cards, the bank moved to compel arbitration of the
restitution claim, arguing that “the state … has stepped
into the shoes of [the] card holders and is therefore subject to the arbitration agreement contained in [the
bank’s] contracts with card holders.” Id. at 567 & n.2,
569. Relying heavily on Waffle House, the Minnesota
Court of Appeals disagreed, holding that “a party that
has not agreed to arbitrate a dispute cannot be required
to arbitrate” and that “the state is in a position similar
to the EEOC’s position in Waffle House.” Id. at 569-570.
“It is not dispositive,” the court added, “that the attorney general seeks victim-specific relief or that the claim
is based on the facts that could permit an individual to
obtain relief through a private tort claim. That was the
situation in Waffle House as well.” Id. at 570.
In short, there is entrenched division among federal
courts of appeals and state appellate courts over the
question presented—and hence inconsistency in the application of the FAA, with the enforcement of arbitration agreements in these circumstances dependent on
where litigation is brought.
III. THE QUESTION PRESENTED IS IMPORTANT AND RECURRING

As the cases cited in Part II show, the question presented is a recurring one. And this Court’s review is
warranted because “[i]t is a matter of great importance
… that state supreme courts adhere to a correct interpretation of the” FAA. Nitro-Lift, 568 U.S. at 17-18.
The Virginia Supreme Court failed to do so here, and its
decision will have far-reaching implications.
As explained, the decision below ignores the settled
rule that the FAA requires enforcement of arbitration

26
agreements against non-signatories who would be bound
by the agreement under traditional contract principles.
Its decision will thus upend settled expectations, allowing non-signatories to benefit from contracts (by bringing claims relating to those contracts) without assuming
the contracts’ obligations. And the disruption will be
particularly severe for the many businesses that—like
NCFS—operate in multiple states.
Additionally, in exempting public officials from binding arbitration agreements, the decision below (like the
similar rulings by other state appellate courts) allows
both public officials and individuals who have signed arbitration agreements to circumvent those agreements
simply by attaching an attorney general’s or other public
official’s name to what are in every important sense
claims by the individuals—claims that the individuals
themselves could not press in court because of the agreements they signed. Such circumvention will severely undermine the FAA’s pro-arbitration policy because (as
also explained) state attorneys general have become
“prominen[t] … enforcer[s],” routinely bringing claims
for individualized relief on behalf of state residents.
Dishman, 2019 B.Y.U. L. Rev. at 447.
Some such lawsuits—i.e., “state suits seeking financial recoveries for identifiable citizens”—are often “multimillion-dollar, multistate treble-damages … suits.”
Lemos, Aggregate Litigation Goes Public: Representative Suits by State Attorneys General, 126 Harv. L. Rev.
486, 498 (2012). And even when such suits involve claims
of only “a few hundred dollars” per individual, id., attorneys general still possess “enormous bargaining leverage” through their ability to “amalgamat[e] … claims of
… hundreds of thousands or even millions of residents,”
Gifford, Impersonating the Legislature: State Attorneys
General and Parens Patriae Product Litigation, 49 B.C.

27
L. Rev. 913, 930-931 (2008); Ratliff, Parens Patriae: An
Overview, 74 Tul. L. Rev. 1847, 1854 (2000). Indeed, because lawsuits brought by state attorneys general often
“involve the rights of a large number of people, they bear
some resemblance to class actions, even if the only plaintiff is the state.” Lemann, Note, Sheep in Wolves’ Clothing: Removing Parens Patriae Suits Under the Class
Action Fairness Act, 111 Colum. L. Rev. 121, 122 (2011);
see also id. at 129-133. Such actions therefore present
the same risk this Court has identified with class actions,
namely, that “defendants will be pressured into settling
questionable claims” because “when damages allegedly
owed to tens of thousands of potential claimants are aggregated and decided at once, the risk of an error will
often become unacceptable.” Concepcion, 563 U.S. at
350. This Court has rightly declined to require businesses or others to assume that risk in class arbitration
unless they have agreed to do so. See Stolt-Nielsen, 559
U.S. at 684-685. For the same reasons, a business should
not have to do so via the aggregation in court of disputes
with individuals who have all agreed with the business
that such disputes would be resolved only through individual arbitration.
Finally, the circumvention of arbitration agreements that is accomplished through lawsuits like this
one is not accidental. To the contrary, some have argued
explicitly that state attorneys general should use representative suits to evade the prohibition on class-wide arbitration found in many arbitration agreements (and approved by this Court in Concepcion). See Gilles & Friedman, After Class: Aggregate Litigation in the Wake of
AT&T Mobility v. Concepcion, 79 U. Chi. L. Rev. 623,
629-631 (2012). However, such evasion—and the circumvention of arbitration agreements more generally—is
contrary to the FAA’s pro-arbitration policy, which

28
requires courts to “rigorously enforce” arbitration
agreements. Dean Witter, 470 U.S. at 221. This Court’s
intervention is needed to reaffirm that principle and ensure that businesses and others can enjoy the benefits of
arbitration for which they have specifically bargained.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
CHARLES K. SEYFARTH
ELIZABETH TURNER
O’HAGAN MEYER
411 East Franklin
Street, Suite 500
Richmond, VA 23219
(804) 403-7137

JULY 2021

SETH P. WAXMAN
Counsel of Record
DANIEL S. VOLCHOK
DAVID M. LEHN
AMY LISHINSKI
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave. N.W.
Washington, D.C. 20006
(202) 663-6000
seth.waxman@wilmerhale.com

APPENDICES

1a
APPENDIX A
SUPREME COURT OF VIRGINIA
Record No. 190840
NC FINANCIAL SOLUTIONS OF UTAH, LLC,
v.
COMMONWEALTH OF VIRGINIA EX REL.
MARK R. HERRING, ATTORNEY GENERAL,
FROM THE CIRCUIT COURT OF FAIRFAX COUNTY,

Daniel E. Ortiz, Judge
Filed: February 25, 2021
OPINION
PRESENT: All the Justices
OPINION BY JUSTICE TERESA M. CHAFIN:
The Attorney General, acting on behalf of the Commonwealth, filed the present action against NC Financial Solutions of Utah, LLC (“NCFS-Utah”), to enforce
the provisions of the Virginia Consumer Protection Act
(the “VCPA”), Code §§ 59.1-196–59.1-207.
On appeal, NCFS-Utah argues that the Circuit Court
of Fairfax County erred when it refused to enforce arbitration agreements between NCFS-Utah and the individual consumers who were affected by the alleged VCPA
violations. Additionally, NCFS-Utah maintains that the
VCPA does not permit the Commonwealth to pursue
restitution for individual consumers. For the following
reasons, we affirm the circuit court’s judgment.

2a
I.

BACKGROUND

NCFS-Utah is an online lender. Between 2012 and
2018, NCFS-Utah provided loans to over 47,000 Virginia
consumers, at interest rates that ranged from 34 to 155
percent. On April 23, 2018, the Attorney General filed a
complaint against NCFS-Utah on behalf of the Commonwealth. The complaint alleged that NCFS-Utah’s lending practices violated certain provisions of the VCPA.
The complaint requested injunctive relief, civil penalties, and awards of attorney’s fees, costs, and reasonable
expenses. The complaint also requested that the circuit
court “[g]rant judgment against [NCFS-Utah] and award
to the Commonwealth all sums necessary to restore to
any consumers the money or property which may have
been acquired from them by [NCFS-Utah] in connection
with its violations … of the VCPA.” Furthermore, the
complaint requested that the circuit court “[e]nter any
additional orders or decrees as may be necessary to restore to any consumers the money or property” that
NCFS-Utah acquired through its unlawful conduct.
On July 17, 2018, NCFS-Utah filed a “Motion to Dismiss, or Alternatively, to Compel Arbitration of Individual Damages.” Based on arbitration provisions in the
loan agreements between NCFS-Utah and the individual Virginia consumers, NCFS-Utah argued that the
consumers had agreed to arbitrate any disputes arising
from the loans at issue.1 NCFS-Utah maintained that an

1

The loan agreements between NCFS-Utah and the Virginia
consumers contained broad arbitration provisions. The arbitration
provisions stated that all claims “arising from or relating directly or
indirectly” to the loan agreements were subject to arbitration, including any claims “based upon a violation of any state … statute or
regulation” and any claims “asserted on [the consumer’s] behalf by

3a
award of restitution would circumvent these arbitration
agreements. Moreover, NCFS-Utah asserted that an
award of restitution would be inconsistent with the provisions of the Federal Arbitration Act (the “FAA”),
9 U.S.C. §§ 1-16. Thus, NCFS-Utah argued that an
award of restitution was preempted by federal law.
NCFS-Utah requested that the circuit court either dismiss the restitution component of the complaint or compel the Virginia consumers to arbitrate any individual
claims for damages.
The Commonwealth filed a memorandum opposing
NCFS-Utah’s motion on August 10, 2018. Citing EEOC
v. Waffle House, Inc., 534 U.S. 279 (2005), the Commonwealth argued that it was not bound by the arbitration
provisions at issue. The Commonwealth noted that it
was not a party to the loan agreements that contained
the arbitration provisions. The Commonwealth also emphasized that it was attempting to enforce the VCPA on
behalf of the public in general rather than the individual
consumers.
The circuit court held a hearing regarding NCFSUtah’s motion on December 7, 2018. At the hearing,
NCFS-Utah argued that Waffle House only applies to
employment claims pursued by the Equal Employment
Opportunity Commission (the “EEOC”). NCFS-Utah
maintained that an award of restitution would nullify the
arbitration agreements between NCFS-Utah and the
Virginia consumers and conflict with the provisions of
the FAA. NCFS-Utah also argued that the VCPA did
not allow the Commonwealth to collect restitution for individual consumers.

another person.” The loan agreements also stated that the arbitration provisions were “governed by the [FAA].”

4a
In response, the Commonwealth argued that Waffle
House was dispositive of the pending motion. The Commonwealth maintained that the FAA was not implicated
in the present case because the Commonwealth was not
bound by the arbitration agreements between NCFSUtah and the Virginia consumers. The Commonwealth
argued that its ability to enforce the VCPA was not limited by the arbitration agreements at issue, and that it
had statutory authority to pursue restitution when enforcing the VCPA on behalf of the public.
The circuit court denied NCFS-Utah’s motion on
February 25, 2019. Relying on Waffle House, the circuit
court concluded that the Commonwealth was not bound
by the arbitration agreements between NCFS-Utah and
the Virginia consumers. The circuit court determined
that the Commonwealth had statutory authority to pursue litigation to enforce the VCPA. Additionally, the circuit court determined that Code §§ 59.1-203 and 59.1-205
authorize the Commonwealth to seek restitution for individual consumers in VCPA enforcement actions. This
appeal followed.2
II. ANALYSIS
NCFS-Utah presents two primary arguments on
appeal. First, NCFS-Utah contends that an award of
restitution in this case would conflict with the provisions
of the FAA and general principles of contract law. Second, NCFS-Utah argues that the VCPA does not authorize the Commonwealth to collect restitution for individual consumers. These arguments present issues of
statutory interpretation and other issues of law that are
subject to de novo review. See Virginia Marine Res.
2

NCFS-Utah filed an interlocutory appeal pursuant to Section
16 of the FAA, 9 U.S.C. § 16, and Code § 8.01-581.016, a similar provision of the Virginia Uniform Arbitration Act (the “VUAA”).

5a
Comm’n v. Chincoteague Inn, 287 Va. 371, 380 (2014);
Anthony v. Verizon Va., Inc., 288 Va. 20, 29 (2014).
A.
NCFS-Utah argues that the FAA and general principles of contract law bar an award of restitution in this
case. This argument fails for a fundamental reason. As
noted by the circuit court, the Commonwealth was not a
party to the loan agreements between NCFS-Utah and
the Virginia consumers. Accordingly, the Commonwealth is not bound by the arbitration provisions contained in the loan agreements, and it could therefore
pursue its claim for restitution in a judicial forum. Neither the FAA nor general principles of contract law preclude the Commonwealth from seeking restitution under
the circumstances of the present case.
The FAA was enacted to “place arbitration agreements upon the same footing as other contracts.” Gilmer
v. Interstate/Johnson Lane Corp., 500 U.S. 20, 24 (1991).
In pertinent part, Section 2 of the FAA states:
A written provision in … a contract evidencing
a transaction involving commerce to settle by
arbitration a controversy thereafter arising out
of such contract … shall be valid, irrevocable,
and enforceable, save upon such grounds as exist at law or in equity for the revocation of any
contract.
9 U.S.C. § 2.
In general, the provisions of the FAA reflect the
“liberal federal policy favoring arbitration agreements.”
Gilmer, 500 U.S. at 25 (quoting Moses H. Cone Mem’l
Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24 (1983)).
The FAA ensures that arbitration agreements are consistently enforced, “notwithstanding any state

6a
substantive or procedural policies to the contrary.”
Perry v. Thomas, 482 U.S. 483, 489 (1987). Nevertheless,
the FAA is simply “at bottom a policy guaranteeing the
enforcement of private contractual arrangements.”
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614, 625 (1985) (quoting Moses H. Cone
Mem’l Hosp., 460 U.S. at 24).
Like the federal policy, the public policy of Virginia
also favors arbitration.3 See TM Delmarva Power,
L.L.C. v. NCP of Va., L.L.C., 263 Va. 116, 122 (2002).
Pursuant to the FAA, this Court applies “federal substantive law to determine whether the parties must submit to binding arbitration as required by [a] contract.”
Amchem Products, Inc. v. Newport News Cir. Ct. Asbestos Cases Plaintiffs, 264 Va. 89, 96 (2002). The FAA,
however, does not purport “to alter background principles of state contract law regarding the scope of agreements (including the question of who is bound by them).”
Arthur Andersen LLP v. Carlisle, 556 U.S. 624, 630
(2009). Therefore, we rely on the general “law of contracts” in order to determine whether a “valid and enforceable agreement to arbitrate” exists between the
parties in any given case. Mission Residential, LLC v.
Triple Net Properties, LLC, 275 Va. 157, 160 (2008).
As a general principle, “[a] party cannot be compelled to submit to arbitration unless [it] has first agreed
3

The VUAA contains a provision that is nearly identical to
Section 2 of the FAA. Code § 8.01-581.01 states that:
[a] written agreement to submit any existing controversy
to arbitration or a provision in a written contract to submit to arbitration any controversy thereafter arising between the parties is valid, enforceable and irrevocable, except upon such grounds as exist at law or in equity for the
revocation of any contract.

7a
to arbitrate.” Id. at 161 (quoting Doyle & Russell, Inc.
v. Roanoke Hosp. Ass’n, 213 Va. 489, 494 (1973)). “Arbitration under the [FAA] is a matter of consent, not coercion.” Waffle House, 534 U.S. at 294 (quoting Volt Info.
Scis., Inc. v. Board of Trustees of Leland Stanford Junior Univ., 489 U.S. 468, 479 (1989)) (alteration in original). “The FAA directs courts to place arbitration agreements on equal footing with other contracts, but it ‘does
not require parties to arbitrate when they have not
agreed to do so.’ ” Id. at 293 (quoting Volt Info. Scis.,
Inc., 489 U.S. at 478). While the FAA “ensures the enforceability of private agreements to arbitrate, [it] does
not purport to place any restriction on a nonparty’s
choice of a judicial forum.” Id. at 289.
In Waffle House, the Supreme Court of the United
States determined that an arbitration agreement between an employer and an employee did not preclude the
EEOC from pursuing an enforcement action against the
employer to obtain “victim-specific” relief for the employee (i.e., backpay, reinstatement, and other damages). See id. at 282.
The Supreme Court noted that the EEOC was not a
party to the arbitration agreement between the employer and the employee. Id. at 294. Additionally, the
Supreme Court observed that the EEOC never agreed
to arbitrate the employment dispute at issue. Id. Consequently, the Supreme Court concluded that the EEOC
was not bound by the arbitration agreement. See id. (“It
goes without saying that a contract cannot bind a nonparty.”).4
4

We note that this is a general statement. The Supreme Court
has explained that traditional principles of contract law allow contracts to be enforced against third parties in certain circumstances,
through “assumption, piercing the corporate veil, alter ego,

8a
Moreover, the Supreme Court noted that the FAA
does not address enforcement actions that are brought by
public agencies. See id. at 289. The Supreme Court concluded that the EEOC was pursuing the enforcement action on behalf of the public, despite its request for individual-specific remedies. See id. at 296 (“[W]henever the
EEOC chooses from among the many charges filed each
year to bring an enforcement action in a particular case,
the agency may be seeking to vindicate a public interest,
not simply provide make-whole relief for the employee,
even when it pursues entirely victim-specific relief.”).
Additionally, the Supreme Court noted that the
EEOC’s claim was not merely “derivative” of the employee’s claim. See id. at 297. While the Supreme Court
acknowledged that the employee’s conduct may have
limited the relief available to the EEOC, the Court explained that the EEOC was not proceeding as a “proxy
for the employee.” See id. at 297-98.
We recognize that Waffle House was decided within
the context of a “detailed enforcement scheme created
by Congress.” See id. at 296. Specifically, Waffle House
involved an alleged violation of the Americans with Disabilities Act of 1990 (the “ADA”) that was challenged by
the EEOC through the procedures set forth in Title VII
of the Civil Rights Act of 1964 (“Title VII”). See id. at
285. The holding in Waffle House, however, was primarily based on the scope of the FAA and the limitations of
the underlying arbitration agreement rather than the
specific provisions of the ADA or Title VII.

incorporation by reference, third-party beneficiary theories, waiver
and estoppel.” See Arthur Andersen LLP, 556 U.S. at 631 (quoting
21 Samuel Williston & Richard A. Lord, A Treatise on the Law of
Contracts § 57:19, at 183 (4th ed. 2001)). These theories of thirdparty liability do not apply in the present case.

9a
The principles underlying the Waffle House decision
apply with equal weight in the present case. Like the
EEOC in Waffle House, the Commonwealth was not a
party to the underlying arbitration agreements. Furthermore, the Commonwealth filed its complaint against
NCFS-Utah in order to enforce the VCPA on behalf of
the public. Although the Commonwealth sought restitution for individual consumers, restitution in this context
is similar to the “victim-specific” relief pursued by the
EEOC in Waffle House. See Waffle House, 534 U.S. at
296. The Commonwealth pursued restitution, along with
other forms of relief, to vindicate the public interest and
enforce the laws of the Commonwealth that are intended
to protect consumers. See generally Code § 59.1-197 (explaining that the VCPA is intended to “promote fair and
ethical standards of dealings between suppliers and the
consuming public”).
Under Waffle House and general principles of contract law, the Commonwealth is not bound by the arbitration agreements at issue. Accordingly, the FAA does
not preclude the Commonwealth from pursuing its
VCPA enforcement action in a judicial forum. Moreover, the Commonwealth is not precluded from seeking
“victim-specific” relief, including restitution for individual consumers, when enforcing the VCPA on behalf of
the public. See Waffle House, 534 U.S. at 296.
B.
NCFS-Utah also contends that the VCPA did not
authorize the Commonwealth to collect restitution for
individual consumers. This argument conflicts with the
plain language of the pertinent provisions of the VCPA
and the remedial purpose of the legislation.
“When the language of a statute is unambiguous, we
are bound by the plain meaning of that language.”

10a
Conyers v. Martial Arts World of Richmond, Inc., 273
Va. 96, 104 (2007). “[I]t is our duty to interpret the several parts of a statute as a consistent and harmonious
whole so as to effectuate the legislative goal.” REVI,
LLC v. Chicago Title Ins. Co., 290 Va. 203, 208 (2015)
(quoting VEPCO v. Board of Cty. Supervisors, 226 Va.
382, 387-88 (1983)). “[S]tatutes are not to be considered
as isolated fragments of law, but as a whole, or as parts
of … a single and complete statutory arrangement.”
JSR Mech., Inc. v. Aireco Supply, Inc., 291 Va. 377, 384
(2016) (quoting Prillaman v. Commonwealth, 199 Va.
401, 405 (1957)).
The General Assembly has indicated that the VCPA
is to “be applied as remedial legislation to promote fair
and ethical standards of dealings between suppliers and
the consuming public.” See Code § 59.1-197. “The legislature seldom chooses to expressly direct the courts how
to apply a statute. When it does so we must pay special
attention to that choice and ensure that it is given full
effect.” Ballagh v. Fauber Enters., Inc., 290 Va. 120, 125
(2015). “We construe remedial legislation liberally in favor of the injured party.” Id.
Pursuant to Code § 59.1-203, “the Attorney General
… may cause an action to be brought in the appropriate
circuit court in the name of the Commonwealth … to enjoin any violation of [the VCPA].” Code § 59.1-203(A).
Thereafter, the “circuit court having jurisdiction may
enjoin such violations notwithstanding the existence of
an adequate remedy at law.” Id. The circuit court is “authorized to issue temporary or permanent injunctions to
restrain and prevent violations of [the VCPA].” Code
§ 59.1-203(C).

11a
Code § 59.1-205 allows a circuit court to award restitution when it permanently enjoins a practice that violates the VCPA. Pursuant to Code § 59.1-205,
[t]he circuit court may make such additional orders or decrees as may be necessary to restore
to any identifiable person any money or property, real, personal, or mixed, tangible or intangible, which may have been acquired from such
person by means of any act or practice declared
to be unlawful in [Code] § 59.1-200 … , provided,
that such person shall be identified by order of
the court within 180 days from the date of the
order permanently enjoining the unlawful act or
practice.
We conclude that Code § 59.1-205 refers to the remedy of restitution, even though it fails to expressly use
that particular term.5 Code § 59.1-205 permits money or
property to be “restored” to the victim of a VCPA violation. “ ‘ Restitution’ is defined, in pertinent part, as ‘a
restoration of something to its rightful owner: the making good of or giving an equivalent for some injury (as a
loss of or damage to property).’ ” Howell v. Commonwealth, 274 Va. 737, 740 (2007) (emphasis added) (quoting Webster’s Third New International Dictionary 1936
(1993)).
5

Numerous jurisdictions have interpreted identical or similar
statutory language to encompass the remedy of restitution. See
California v. IntelliGender, LLC, 771 F.3d 1169, 1174 (9th Cir.
2014); People v. Pacific Land Research Co., 569 P.2d 125, 127 n.4
(Cal. 1977); Commonwealth v. ABAC Pest Control, Inc., 621 S.W.2d
705, 706 (Ky. Ct. App. 1981); State v. Master Distribs., Inc., 615 P.2d
116, 123 (Idaho 1980); Kugler v. Romain, 279 A.2d 640, 642 (N.J.
1971); Thomas v. State, 226 S.W.3d 697, 706 (Tex. App. 2007); State
v. Ralph Williams’ N.W. Chrysler Plymouth, Inc., 510 P.2d 233, 241
(Wash. 1973) (en banc).

12a
The plain language of Code § 59.1-203 allows the Attorney General to file an action on behalf of the Commonwealth to enjoin practices that violate the VCPA. In
turn, Code § 59.1-205 permits a circuit court to award
restitution after it enters an order permanently enjoining an unlawful practice. When Code §§ 59.1-203 and
59.1-205 are read together, the statutes implicitly authorize the Attorney General to request an award of restitution when pursuing a VCPA enforcement action on
behalf of the Commonwealth. This construction is consistent with the plain language of the statutory provisions at issue and the remedial purpose of the VCPA.
See Code § 59.1-197; Ballagh, 290 Va. at 125.
III. CONCLUSION
For the reasons stated, we affirm the judgment of the
circuit court.
Affirmed.

13a
APPENDIX B
NINETEENTH JUDICIAL CIRCUIT OF VIRGINIA
[OPINION LETTER]
[letterhead]
May 1, 2019
Erin E. Witte, Esquire
Office of the Attorney General
202 N 9th St.
Richmond, VA 23219
Counsel for Plaintiff
Charles K. Seyfarth, Esquire
O’Hagan Meyer
411 East Franklin St., Ste. 500
Richmond, VA 23219
Counsel for Defendant
Re: Commonwealth of Virginia, ex. Rel. Mark R.
Herring, Attorney General v. Net Credit Financial Solutions of Utah, LLC, Case No. CL-20186258
Dear Counsel:
This matter is before the Court on Net Credit Financial Solutions of Utah’s (“Net Credit”) Motion to Dismiss or to Compel Arbitration. Net Credit contends that
certain portions of this litigation should be dismissed or
stayed since the individual borrowers signed arbitration
agreements with Net Credit, which would preclude the
Commonwealth of Virginia’s (“Commonwealth”) ability
to obtain relief in this matter. The Court is called upon
to decide one central issue:

14a
Whether the Commonwealth may pursue litigation against Net Credit on behalf of individuals
to enforce the Virginia Consumer Protection Act,
Virginia Code §§ 59.1-196 et seq., notwithstanding that the individual borrowers signed binding
arbitration agreements with Net Credit?
After considering the pleadings and oral arguments
presented by Counsel, the Court finds that the existence
of arbitration agreements between Net Credit and individual borrowers does not preclude the Commonwealth
from filing this action. Although the borrowers made
agreements to pursue their claims with Net Credit
through arbitration, the Commonwealth is not a party to
those agreements, and has statutory authority to proceed with this action.
I.

BACKGROUND

The present Motion to Dismiss stems from loan
agreements entered into between Net Credit and private
borrowers. The Commonwealth’s Complaint alleges several claims, including an allegation that Net Credit violated the Virginia Consumer Protection Act (“VCPA”) by
misrepresenting the legality of charging more than
twelve percent annual interest, among other misrepresentations. See Compl. ¶76 (a)-(g). Net Credit is a Chicago-based internet lender that has allegedly provided
closed-end installment loans to over 47,000 Virginia consumers at annual interest rates ranging from 35% to 155%
between 2012 and 2018. Id. Net Credit’s contracts with
those consumers included mandatory arbitration provisions. In its Complaint, the Commonwealth is seeking
restitution, civil penalties, attorneys’ fees, and injunctive
relief. This Court is called upon to decide whether the
Commonwealth may pursue litigation against Net Credit
to enforce the VCPA, Virginia Code §§ 59.1-196 et seq.,

15a
although the borrowers signed binding arbitration agreements with Net Credit.
II. STANDARD OF REVIEW
This Court has jurisdiction to determine whether
parties are bound to arbitration. “[I]t is the province of
the courts to determine the threshold question of arbitrability, given the terms of the contract between the
parties. This is so because the extent of the duty to arbitrate, just as the initial duty to arbitrate at all, arises
from contractual undertakings. Doyle & Russell, Inc. v.
Roanoke Hospital Assoc., 213 Va. 489, 494 (1973). However, a “party cannot be compelled to submit to arbitration unless he has first agreed to arbitrate.” Id.
Whether there has been an agreement to arbitrate on a
given issue is a matter of contract interpretation subject
to the determination of the courts. Id.
III. ARGUMENTS
A. Defendant’s Argument
Net Credit contends that the Commonwealth is
bound by the arbitration agreements made by the individual borrowers, and thus should be compelled to arbitrate the issues raised in its Complaint. Each loan agreement in question contains an arbitration provision requiring that any disputes between Net Credit and the
individual borrowers be resolved by binding arbitration.
The Commonwealth cannot assert these claims on behalf
of the individual borrowers and then ignore the arbitration agreement between Net Credit and the individual
borrowers. Net Credit argues that the relevant case law
contradicts the Commonwealth’s position. In Olde Discount Corp. v. Tupman, the Third Circuit addressed
whether the securities commissioner could pursue remedies on behalf of individuals who had contractually

16a
agreed that such claims would be subject to mandatory
arbitration. 1 F.3d 202 (3d Cir. 1993). Since the matter
would be subject to arbitration if brought by the individuals themselves, the commissioner could not be granted
the ability to circumvent arbitration. Id at 210. That
court decided that to allow the commissioner to pursue
litigation would be to render the arbitration agreement
a nullity. Id. This logic has been subsequently relied
upon in the Federal District Court in Delaware. Ropp v.
1717 Capital Mgmt. Co., 2004 WL 93945, at *2 (D. Del.
Jan. 14, 2004).
Net Credit argues that EEOC v. Waffle House, 534
U.S. 279 (2002) is not dispositive of the matter at hand.
Waffle House held that the EEOC could not be bound by
arbitration provisions between employers and employees, but its value does not extend beyond the area of employment disputes. The VCPA places individuals in control of their own cases, expressly providing for a private
right of action by individuals. Va. Code § 59.1-204. Unlike in EEOC actions, both individuals and the Commonwealth may bring separate actions under the VCPA, and
it contains no statutory mechanism to prevent duplicative litigation.
B. The Commonwealth’s Response
The Commonwealth argues that it is not subject to
the arbitration requirement because it was not a party
to the arbitration agreements. “It goes without saying
that a contract cannot bind a non-party.” EEOC v. Waffle House, Inc. 534 U.S. 279, 294 (2002). Although Waffle
House involved a dispute with the EEOC, the VCPA
bears many resemblances to the EEOC-enforced Title
VII. The Attorney General bears the primary burden of
litigation for VCPA claims, like the EEOC does for employment-related claims. Just like in the EEOC process,

17a
when a government agency files a suit under the VCPA,
the statute of limitations applicable to private actions is
tolled, permitting consumers to defer pursuing individual claims. Va. Code § 59.1-204.1(B). The Commonwealth is not merely a proxy for individuals’ claims, and
it maintains control over its own cases. The contradictory cases cited by Net Credit are either not binding or
precede the Supreme Court’s Waffle House decision.
IV. ANALYSIS
A. The Commonwealth Possesses Statutory Authority to Pursue Litigation
The General Assembly has set forth plain language
supporting the Commonwealth’s position. The foundation for the support begins with the “intent” of the
VCPA:
It is the intent of the General Assembly that this
chapter shall be applied as remedial legislation
to promote fair and ethical standards of dealings
between suppliers and the consuming public.
Va. Code § 59.1-197.
When the General Assembly provides language in
“clear and unmistakable terms,” it must be followed. Halifax Corp. v. Wachovia Bank, 268 Va. 641, 657, 604 S.E.2d
403,410 (2004). “When a statute’s language is plain and
unambiguous, we are bound by the plain meaning of that
language.” Mozley v. Prestwould Bd. of Directors, 264
Va. 549, 554, 570 S.E.2d 817, 820 (2002) (citing Indus. Dev.
Auth. v. Bd. of Supervisors, 263 Va. 349, 353, 559 S.E.2d
621, 623 (2002); Earley v. Landsidle, 257 Va. 365, 370, 514
S.E.2d 153, 155 (1999). “Therefore, when the General Assembly has used words of a plain and definite import,
courts cannot assign to them a construction that would be
tantamount to holding that the General Assembly

18a
intended something other than that which it actually expressed.” Id. (citing Vaughn, Inc. v. Beck, 262 Va. 673,
677, 554 S.E.2d 88, 90 (2001); see Advanced Marine Enters., Inc. v. PRC Inc., 256 Va. 106, 125, 501 S.E.2d 148,
159 (1998). Here, the plain language of Va. Code § 59.1197 illustrates the General Assembly’s intent that the
statute be applied to remedy unfair and unethical dealings between suppliers and consumers.
The Commonwealth has statutory authority to pursue the claims through litigation. Virginia Code § 59.1205 permits a circuit court in a VCPA case to:
Make additional orders or decrees as may be necessary to restore to any identifiable person any
money or property, real, personal, or mixed, tangible or intangible, which may have been acquired from such person by means of any act or
practice declared to be unlawful in §59.1-200 or
59.1-200.1, provided, that such person shall be
identified by order of the court within 180 days
from the date of the order permanently enjoining
the unlawful act or practice.
Thus, Va. Code § 59.1-205 gives this Court the authority to issue injunctions as individual remedies. Va.
Code § 59.1-203 provides that only the Commonwealth
or an agent of the Commonwealth may bring an action
for an injunction in the framework of the VCPA. The
fact that only the Commonwealth may obtain injunctive
relief and that the Court is authorized to grant it for individuals insinuates that the Commonwealth may pursue such relief on the part of individual borrowers. If the
Commonwealth is authorized to seek injunctive relief
under the VCPA on behalf of citizens, then it follows that
it may pursue other remedies on behalf of individual borrowers as well.

19a
Finally, the only statute in the VCPA that references arbitration, Va. Code § 59.1-202, prohibits any requirement that the Attorney General submit to arbitration to resolve disputes over its settlements. “Nothing
in this chapter shall be construed to authorize or require
the Commonwealth, the Attorney General, an attorney
for the Commonwealth or the attorney for any county,
city or town to participate in arbitration of violations under this section.” §59.1-202.
Net Credit’s arguments that the Commonwealth is
seeking to obtain damages for individuals and might subject it to “double litigation” are incorrect. Instead, the
Commonwealth is seeking the following relief as a result
of a violation of the VCPA:
“A. That the Court permanently enjoin Defendant
and its officers, directors, members, managers,
employees, agents, successors and assigns from
violating (section) 59.1-200 of the VCPA pursuant to Virginia Code §59.1-203;
B. That the Court grant judgment against the Defendant and award to the Commonwealth all
sums necessary to restore to any consumers the
money or property which may have been acquired from them by Defendant in connection
with its violation of §59.1-200 of the VCPA pursuant to Virginia Code §59.1-205;
C. That the Court enter any additional orders or
decrees as may be necessary to restore to any
consumers the money or property which may
have been acquired from them in connection
with its violation of § 59.1-200 of the VCPA pursuant to Virginia Code § 59.1-205;
D. That the Court grant judgment against the Defendant and award to the Commonwealth civil
penalties of up to $2,500.00 per violation for each

20a
willful violation of § 59.1-200 of the VCPA pursuant to Virginia Code § 59.1-206(A), the exact
number of violations to be proven at trial;
E. That the Court grant judgment against the Defendant and award to the Commonwealth its
costs, reasonable expenses incurred in investigating and preparing the case up to $1,000.00
per violation of § 59.1-200 of the VCPA, and attorney’s fees pursuant to Virginia Code § 59.1206 (C); and
F. Grant such other and further relief as this Court
deems equitable and proper.”
(See Compl., at 13).
Net Credit’s concern regarding duplicitous recovery
is also rebutted by the Court’s ability to prevent such an
outcome. “Courts can and should preclude double recovery.” Waffle House, 534 U.S. at 297. Should Net Credit
become aware of both the individual borrowers and the
Commonwealth seeking the same recovery, it may then
petition the Court for relief. Since such duplicitous recovery has not yet occurred or been threatened, the issue is
not ripe for the Court to consider at this time. Although
the VCPA does not statutorily prohibit consumers from
pursuing individual claims while the Commonwealth’s
lawsuit is pending, Net Credit could obtain the same result through other means. It could follow the actions of
the litigants in In re: Am. Investors Life Ins. Co. Annuity
Mktg. & Sales Practices Litig., 2013 U.S. Dist. LEXIS
96449, who successfully moved the court to preclude double recovery.

21a
B. The Binding Case Law Supports the Commonwealth’s Ability to Pursue Litigation
The United States Supreme Court has provided
guidance on the ability of a government entity to pursue
litigation to enforce its laws, even when affected individuals agreed to arbitrate the same disputes. In EEOC v.
Waffle House, Inc., 534 U.S. 279, 294 (2002), the Court
allowed the EEOC to pursue employment discrimination claims through litigation, even though the individual
employees had agreed to arbitration. In making this decision, the Court did not focus specifically on the structure of the EEOC, but rather on the fact that the Commission was not privy to the agreements that had been
made: “[i]t goes without saying that a contract cannot
bind a non-party.” Id. at 294. Here, the Commonwealth
was not a party to any of the arbitration agreements
made between individual borrowers and Net Credit.
Pursuant to the Court’s rationale and holding in Waffle
House, the Commonwealth may not be bound by provisions in contracts it did not agree to. Thus, the Commonwealth is free to pursue these claims through litigation.
V. CONCLUSION
For the foregoing reasons, the Court denies Net
Credit’s Motion to Dismiss or to Compel Arbitration.
Sincerely,
[handwritten signature]
Daniel E. Ortiz
Circuit Court Judge

23a
APPENDIX C
ARBITRATION PROVISION
GOVERNING LAW, ASSIGNMENT and EXECUTION.
The laws of the State of Utah will govern this Agreement.· However, any dispute arising out of this Agreement will be subject to the ARBITRATION PROVISION
(http://portal.netcredit.com/account/7834492/
loans/2015VA120578593/contract#arbitration_provision),
which is governed by the Federal Arbitration Act
(“FAA”). We may assign or transfer this Agreement or
any of our rights hereunder. If we approve this Agreement, then you agree that this Agreement will be binding and enforceable as to both parties.
ARBITRATION PROVISION
Arbitration is a process in which persons with a dispute(s): (a) agree to submit their dispute(s) to a neutral
third person (an “arbitrator”) for a decision; and (b)
waive their rights to file a lawsuit in court to resolve
their dispute(s). Each party to the dispute(s) has an opportunity to present some evidence to the arbitrator.
Pre-arbitration discovery may be limited. Arbitration
proceedings are private and less formal than court trials.
The arbitrator will issue a final and binding decision resolving the dispute(s), which may be enforced as a court
judgment. A court rarely overturns an arbitrator’s decision. THEREFORE, YOU ACKNOWLEDGE AND
AGREE AS FOLLOWS:
Scope.
For purposes of this Arbitration Provision the words
“dispute” and “disputes” are given the broadest possible
meaning and include, without limitation (a) all claims,
disputes, or controversies arising from or relating

24a
directly or indirectly to the signing of this Arbitration
Provision, the validity and scope of this Arbitration Provision and any claim or attempt to set aside this Arbitration Provision; (b) all federal or state law claims, disputes or controversies, arising from or relating directly
or indirectly to this Agreement (including the Arbitration Provision), the information you gave us before entering into this Agreement, including your application,
and/or any past agreement or agreements between you
and us; (c) all counterclaims, cross-claims and thirdparty claims; (d) all common law claims, based upon contract, tort, fraud, or other intentional torts; (e) all claims
based upon a violation of any state or federal constitution, statute or regulation; (f) all claims asserted by us
against you, including claims for money damages to collect any sum we claim you owe us; (g) all claims asserted
by you individually against us and/or any of our employees, agents, directors, officers, shareholders, governors,
managers, members, parent company or affiliated entitles (hereinafter collectively referred to as “related third
parties”), including claims for money damages and/or equitable or injunctive relief; (h) all claims asserted on your
behalf by another person; (i) all claims asserted by you
as a private attorney general, as a representative and
member of a class of persons, or in any other representative capacity, against us and/or related third parties
(hereinafter referred to as “Representative Claims”);
and/or (j) all data breach or privacy claims arising from
or relating directly or indirectly to the disclosure by us
or related third parties of any non-pubic personal information about you.
Court and Class Action Waivers.
You acknowledge and agree that by entering into
this Arbitration Provision:

25a
a. YOU ARE WAIVING YOUR RIGHT TO HAVE A
COURT, OTHER THAN A COURT OF LIMITED
JURISDICTION (e.g., small claims court), RESOLVE ANY DISPUTE ALLEGED AGAINST US
OR RELATED THIRD PARTIES; and
b. YOU ARE WAIVING YOUR RIGHT TO SERVE
AS A REPRESENTATIVE, AS A PRIVATE ATTORNEY GENERAL, OR IN ANY OTHER REPRESENTATIVE CAPACITY, AND/OR TO PARTICIPATE AS A MEMBER OF A CLASS OF
CLAIMANTS, IN ANY LAWSUIT FILED
AGAINST US AND/OR RELATED THIRD PARTIES.
No Class Arbitration.
Except as provided in the Small Claim Disputes paragraph below, all disputes, including any Representative Claims against us and/or related third
parties shall be resolved by binding arbitration only
on an individual basis with you. THEREFORE, THE
ARBITRATOR SHALL NOT CONDUCT CLASS ARBITRATION. THE ARBITRATOR SHALL ALSO
NOT ALLOW YOU TO SERVE AS A REPRESENTATIVE, AS A PRIVATE ATTORNEY GENERAL, OR IN
ANY OTHER REPRESENTATIVE CAPACITY FOR
OTHERS IN THE ARBITRATION.
Process.
Any party to a dispute, including related third parties,
may send the other party written notice by certified mail
return receipt requested of their intent to arbitrate and
setting forth the subject of the dispute along with the
relief requested, even if a lawsuit has been filed. Regardless of who demands arbitration, you shall have the
right to select either of the following arbitration

26a
organizations to administer the arbitration: the American
Arbitration
Association
(1-800-778-7879)
http://www.adr.org (http://www.adr.org/) or JAMS (1800-352-5267)
http://www.jamsadr.com
(http://www.jamsadr.com/). However, the parties may
agree to select a local arbitrator who is an attorney, retired judge, or arbitrator registered and in good standing with an arbitration association and arbitrate pursuant to the arbitrator’s rules. If you demand arbitration,
you must inform us in your demand of the arbitration organization you have selected or whether you desire to
select a local arbitrator. If related third parties or we
demand arbitration, you must notify us within 20 days in
writing by certified mail return receipt requested of
your decision to select an arbitration organization or
your desire to select a local arbitrator. If you fail to notify us, then we have the right to select an arbitration
organization. The parties to the dispute will be governed by the rules and procedures of the arbitration organization applicable to consumer disputes, to the extent
those rules and procedures do not contradict the express
terms of this Agreement, including the Arbitration Provision. You may get a copy of the rules and procedures
by contacting the arbitration organization listed above.
Fees/Awards/Appeals.
Regardless of who demands arbitration, we will advance
your portion of the expenses associated with the arbitration, including the filing, administrative, hearing and arbitrator’s fees (“Arbitration Fees”). Throughout the arbitration, each party shall bear his or her own attorneys’
fees and expenses, such as witness and expert witness
fees. The arbitrator shall apply applicable substantive
law consistent with the FAA, and applicable statutes of
limitation, and shall honor claims of privilege recognized
at law. The arbitration hearing will be conducted in the

27a
county of your residence, in the county where this
Agreement was signed, or in such other place as ordered
by the arbitrator or required by law. The arbitrator may
decide, with or without a hearing, any motion that is substantially similar to a motion to dismiss for failure to
state a claim or a motion for summary judgment. In conducting the arbitration proceeding, the arbitrator shall
not apply any federal or state rules of civil procedure or
evidence. If allowed by statute or applicable law, the arbitrator may award statutory damages and/or reasonable attorneys’ fees and expenses. If the arbitrator renders a decision in your favor awarding monetary damages and the award is less than the maximum amount
allowed to be awarded in the state’s court of limited jurisdiction, then your award will be automatically increased to $100 more than that maximum amount. Regardless of whether the arbitrator renders a decision or
an award in your favor resolving the dispute, you will not
be responsible for reimbursing us for your portion of the
Arbitration Fees. At the timely request of any party,
the arbitrator shall provide a written explanation for the
award. The arbitrator’s award may be filed with any
court having jurisdiction. Either party may appeal the
arbitrator’s decision within 30 days to a single arbitrator
or a three-arbitrator panel from the same arbitration organization originally chosen, which shall review the
award de novo (without regard to the original decision).
If you decide to appeal the decision to a single arbitrator,
then we will pay your portion of the Arbitration Fees associated with the appeal. If you decide to appeal the decision to a three-arbitrator panel, then you will be responsible for paying the difference in Arbitration Fees
between a single arbitrator and a three-arbitrator panel.

28a
Small Claim Disputes.
All parties, including related third parties, shaft retain
the right to seek adjudication in the state’s court of limited jurisdiction for disputes within the scope of that
court’s jurisdiction. Any dispute which cannot be adjudicated in that court shall be resolved by binding arbitration. Any appeal of a judgment from that court shall
be resolved by binding arbitration.
Interstate Commerce.
This Arbitration Provision is made pursuant to a transaction involving interstate commerce and shall be governed by the FAA. If a final non-appealable judgment
of a court having jurisdiction over this transaction finds,
for any reason, that the FAA does not apply to this
transaction, then our agreement to arbitrate shall be
governed by the arbitration law of the State of Utah.
Binding Effect.
This Arbitration Provision is binding upon and benefits
you, your respective heirs, successors and assigns. The
Arbitration Provision is binding upon and benefits us,
our successors and assigns, and related third parties.
The Arbitration Provision continues in full force and affect, even if your obligations have been prepaid, paid or
discharged through bankruptcy. The Arbitration Provision survives any termination, amendment, expiration
or performance of any transaction between you and us
and continues in full force and effect unless you and we
otherwise agree in writing.
Severability.
If any portion of this Arbitration Provision is deemed invalid or unenforceable, it will not invalidate the remaining portions of the Arbitration Provision, unless the

29a
provision precluding the arbitrator from conducting a
class arbitration as set forth in the No Class Arbitration
paragraph is deemed invalid or unenforceable, in which
case this entire Arbitration Provision shall be deemed
void.
OPT-OUT PROCESS.
You may choose to opt out of this Arbitration Provision
but only by following the process set forth below. If you
do not wish to be subject to this Arbitration Provision,
then you must notify us in writing postmarked within
sixty (60) calendar days of the date of this Agreement at
the following address: NC Financial Solutions of Utah,
LLC, Attn: General Counsel, 200 W Jackson, Suite 500,
Chicago, IL 60606. Your written notice must include
your name, address, social security number, the date of
this Agreement, a statement that you wish to opt out of
the Arbitration Provision and must not be sent with any
other correspondence, indicating your desire to opt-out
at this Arbitration Provision in any manner other than
as provided above is insufficient notice. Your decision to
opt out of this Arbitration Provision will not affect your
other rights or responsibilities under this Agreement,
and applies only to this Arbitration Provision and no
prior or subsequent Arbitration Provision to which you
and we have agreed.

